OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S
IMPLEMENTATION OF THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 9-000-08-008-P
June 2, 2008




WASHINGTON, DC
Office of Inspector General


June 2, 2008

MEMORANDUM

TO:                  GH/HIV-AIDS Acting Director, Denny Robertson

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Implementation of the President’s Emergency Plan for AIDS
                     Relief (Report No. 9-000-08-008-P)


This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your response in its entirety in appendix II.

This report contains one recommendation intended to improve the implementation of the
President’s Emergency Plan for AIDS Relief. Based on your comments and the documentation
provided, we consider that final action has been taken on the recommendation.

Again, I want to express my appreciation for the cooperation and courtesy extended to my
staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

           Some Programs Achieved Measurable Results.................................................... 5

           USAID Should Strengthen Performance Management ........................................ 8

           USAID Should Improve Data Quality .................................................................. 10

Evaluation of Management Comments ....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15

Appendix III – Audit Recommendations by Mission Audited ................................... 17

Appendix IV – Audit Reports Issued ........................................................................... 20
SUMMARY OF RESULTS
This report summarizes the results of the Office of Inspector General audits conducted
at five selected missions in Africa and Asia (Cambodia, India, Malawi, Russia, and
Zimbabwe). (See appendix III for audit recommendations by mission audited and
appendix IV for a list of audit reports issued.)

On May 27, 2003, President Bush signed the legislative authorization for the Emergency
Plan for AIDS Relief (PEPFAR). PEPFAR is the largest commitment made by any
nation for an international health initiative dedicated to a single disease. It originally
planned to provide $15 billion over 5 years for the prevention, treatment, and care of
individuals with HIV/AIDS. President Bush has requested that Congress reauthorized
another $30 billion for an additional 5 years. The United States leads the world in its
level of support for the fight against HIV/AIDS. (See page 2).

Through PEPFAR, the U.S. Government works with international, national, and local
leaders worldwide to support integrated prevention, care, and treatment programs. The
Department of State's Office of the U.S. Global AIDS Coordinator 1 directs PEPFAR.
The Bureau for Global Health has general responsibility for USAID’s participation in
PEPFAR. (See page 2).

The objective of this audit was to determine whether USAID's PEPFAR projects
achieved planned results for prevention, care, and treatment activities. (See page 4.)

Three of the five missions audited achieved planned results in the applicable grants,
cooperative agreements, and contracts in fiscal year 2006. In one of the five missions
planned results were not met primarily because of hyperinflation. In the other country
unreliable data made it difficult to determine if results had been achieved. (See page 5.)

This report addresses two issues related to performance management and data quality
assurance. The first issue pertains to performance monitoring, which is explicitly
specified in USAID’s Automated Directives System. Mission-level audit reports have
already made specific recommendations to correct identified problems. Therefore, we
are not making any recommendations related to performance monitoring. (See page 8.)

The second issue pertains to data quality assurance, and we are recommending that the
Office of HIV/AIDS Director request that the Department of State’s Office of the U.S.
Global AIDS Coordinator issue clear and explicit guidance to all missions with PEPFAR
activities to ensure that data quality assessments are conducted properly and reported
results are properly verified. (See page 10).

USAID’s Office of HIV/AIDS agreed with the findings and recommendation in the report
and final action has been taken on the recommendation. (See page 15).




1
    The U.S. Global AIDS Coordinator reports directly to the Secretary of State.



                                                                                    1
BACKGROUND
Recognizing the global HIV/AIDS pandemic as one of the greatest challenges of our
time, Congress enacted legislation to fight HIV/AIDS internationally through the
President’s Emergency Plan for AIDS Relief (PEPFAR)—the largest international health
initiative in history by one nation to address a single disease. Although PEPFAR
originally planned to provide $15 billion over 5 years for the prevention, treatment, and
care of individuals with HIV/AIDS, $18.8 billion has been committed through January 3,
2008, with 58 percent allocated to programs in 15 focus countries. 2 In addition,
President Bush has requested that Congress reauthorize PEPFAR for $30 billion over 5
additional years.

PEPFAR also devoted $5 billion out of the originally planned $15 billion to other bilateral
programs in more than 100 countries and increased the U.S. pledge to the Global Fund 3
by $1 billion over 5 years. To date, the United States has contributed more than $2.5
billion to the Global Fund.

This audit covered nonfocus country missions in Cambodia, India, Malawi, Russia, and
Zimbabwe. These five missions obligated a total of about $72.4 million for PEPFAR
activities in fiscal year 2006. The next five paragraphs summarize the nature of the
HIV/AIDS pandemic in these five countries, and USAID’s response.

Nationally, the HIV prevalence rate in Cambodia has fallen to an estimated 0.9 percent
among the adult (15–49 years of age) population in 2006, down from a peak of 2 percent
in 1998. Approximately 130,000 people were living with HIV/AIDS in Cambodia in 2005.
Cambodia’s epidemic is spread primarily through heterosexual transmission and
revolves largely around the sex trade. In fiscal year 2005, USAID allocated $14.3 million
of Child Survival and Health funds and $500,000 of Global HIV/AIDS Initiative funds for
PEPFAR activities in Cambodia. As of September 30, 2006, USAID/Cambodia had
obligated about $14.7 million for activities implemented by 12 partners.

In India, according to the 2006 Report on the Global AIDS Epidemic published by the
United Nations, in 2005 approximately 5.7 million people were living with HIV/AIDS—the
largest number of any country in the world. The adult prevalence rate is estimated at 0.9
percent. Sexual transmission accounts for the vast majority of HIV infections in India,
and prostitution is a driving factor of the epidemic. USAID allocated $16.1 million of
Child Survival and Health funds and an additional $4.4 million from the Global HIV/AIDS
Initiative account for fiscal year 2005.

Malawi was categorized as one of PEPFAR’s nonfocus countries receiving more than
$10 million yearly starting in fiscal year 2006. According to PEPFAR’s country profile,
approximately 940,000 people under the age of 50 were living with HIV/AIDS, and the
2
  Twelve countries in Africa (Botswana, Côte d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia,
Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia), and three other countries
(Guyana, Haiti, and Vietnam).
3
 The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis,
and malaria.



                                                                                         2
adult prevalence rate was 14.1 percent by the end of 2005. The primary mode of HIV
transmission is unprotected heterosexual sex. The second major mode is mother-to-
child transmission, accounting for approximately 83,000 pediatric HIV infections in 2005.
USAD/Malawi obligated $10.2 million in fiscal year 2006 for HIV/AIDS activities.

Russia has experienced one of the fastest growing HIV/AIDS epidemics in the world
over the past decade. Russia identified its first case of HIV in 1987, and until 1995 the
prevalence rate remained low. In 1996, however, the infection rate exploded, with 1,515
new cases. After reaching its highest level to date in 2001, the annual number of newly
diagnosed HIV/AIDS cases in Russia has remained relatively steady. At the end of
2005, there were approximately 350,000 registered cases of HIV/AIDS in Russia. These
figures, however, are not accurate, as many cases are not officially reported. During
fiscal year 2006, USAID/Russia obligated $15.5 million to HIV/AIDS activities
implemented by 10 prime implementing partners.

USAID/Zimbabwe’s 5-year strategy presents information on the social and economic
situation in Zimbabwe and the fight against AIDS. With an HIV prevalence rate as high
as 20.1 percent, 180,000 new infections each year, and 185,000 deaths each year from
AIDS, Zimbabwe is at the epicenter of the HIV/AIDS pandemic. Exacerbating the
current pandemic is Zimbabwe’s political and economic climate. Zimbabwe continues to
suffer a severe socioeconomic and political crisis, including unprecedented rates of
inflation and severe loss of Zimbabwe’s health professionals. Elements of a previously
well-maintained health care infrastructure are crumbling.           Food insecurity is a
contributing factor to suboptimal nutrition, which increases the vulnerability of individuals
with compromised immune systems to life-threatening opportunistic infections, such as
tuberculosis. USAID/Zimbabwe’s program was implemented by four partners and
received a total contribution of $11.5 million from the U.S. Government.

PEPFAR is directed by the Department of State’s Office of the U.S. Global AIDS
Coordinator (AIDS Coordinator). To ensure program and policy coordination, the AIDS
Coordinator manages the activities of the U.S. Government agencies responding to the
pandemic. PEPFAR is implemented collaboratively by in-country teams made up of staff
from USAID, the Department of State, the Department of Health and Human Services,
and other agencies. The Bureau for Global Health has general responsibility for
USAID’s participation in PEPFAR. The director of Global Health’s Office of HIV/AIDS
provides the technical leadership for USAID’s program.

The U.S. President and Congress have set aggressive goals for addressing the
worldwide HIV/AIDS pandemic. The worldwide goal over 5 years is to provide treatment
to 2 million HIV-infected people, prevent 7 million HIV infections, and provide care to 10
million people infected or affected by HIV/AIDS, including orphans and vulnerable
children.




                                                                                       3
AUDIT OBJECTIVE
As part of the Office of Inspector General’s fiscal year 2007 annual audit plan, the
Performance Audits Division directed this audit to answer the following question:

   •   Did USAID’s prevention, care, and treatment activities in the President’s
       Emergency Plan for AIDS Relief achieve planned results in its grants,
       cooperative agreements, and contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                               4
AUDIT FINDINGS
Three of the five missions audited achieved planned results in their grants, cooperative
agreements, and contracts in fiscal year 2006 for the President’s Emergency Plan for
AIDS Relief (PEPFAR). In one of the five missions planned results were not met
primarily because of hyperinflation. In the other country unreliable data made it difficult
to determine if results had been achieved. Specifically,

   • USAID/Russia’s, USAID/Cambodia’s, and USAID/India’s PEPFAR activities
     achieved the planned results in their grants, cooperative agreements, and
     contracts.

   • USAID/Zimbabwe’s PEPFAR activities did not achieve planned results in their
     grants, cooperative agreements, and contracts. Twenty-eight of 48 planned
     outputs were achieved. Hyperinflation in Zimbabwe, which eroded purchasing
     power daily, contributed to the low achievement rate because implementing
     partners’ professional staff fled the country to escape the rising cost of living.

   • USAID/Malawi’s PEPFAR activities did not achieve planned results in their grants,
     cooperative agreements, and contracts. Five of seven planned outputs were
     achieved. For the remaining two planned results, the audit team could not
     determine whether the intended results were achieved because of unreliable data.

The results achieved, however, are particularly noteworthy and have had an impact,
given the challenging operating environment of some missions. However, despite these
notable achievements, the audits conducted at the five missions reported internal control
weaknesses related to performance management and data quality of outputs.
Addressing these weaknesses will improve program management.

The following subsections discuss some of the noteworthy accomplishments and some
internal control weaknesses noted at the missions.

Some Programs Achieved
Measureable Results
All five of the missions audited reported achievements in several areas of the program,
despite the challenging operating environment in some of these countries.

USAID/Russia completed several significant projects, including the following:

   1. Assistance to Russian orphans project – This project conducted numerous
      training activities related to preventing child abandonment, provided assistance
      for special needs children and their families, and offered case management
      approaches.




                                                                                     5
   Photograph of a mother/child hospital room, part of an effort to reduce the number of babies
   abandoned by HIV-infected mothers, at a USAID-supported hospital in St. Petersburg,
   Russia (June 2007).

2. Prevent AIDS Project – Despite budgetary reductions and delays, the project was
   still able to (1) achieve most of its programmatic objectives for the year for
   activities in the two focal cities of St. Petersburg and Samara; (2) initiate activities
   in a third focal city (Orenburg) by the end of FY 2006; and (3) successfully
   implement case management and outreach efforts in St. Petersburg, Saratov,
   and Samara during the fiscal year.




   Photographs of a mobile outreach bus that provides care and counseling to intravenous
   drug users, one of the many activities being implemented as part of the USAID-supported
   Prevent AIDS project in St. Petersburg, Russia (June 2007).




                                                                                         6
USAID/Cambodia – Although Cambodia is one of the poorest countries in the world,
extraordinary HIV prevention and control efforts exerted by the Government of
Cambodia and its partners have helped to reduce the spread of HIV. Between 2003 and
2005, the estimated HIV prevalence among adults ages 15 to 49 declined from 2.0
percent to 1.6 percent. Through PEPFAR, the U.S. Government and its partners work
in partnership with the Government of Cambodia to implement Cambodia’s National
Strategic Plan for HIV. This was accomplished through cooperation among partner
governments, nongovernmental, community-based, and faith-based organizations, and
people living with HIV/AIDS. Given the limited health care resources and capacity in
many communities, PEPFAR provides integrated HIV/AIDS prevention, care, and
treatment services that maximize the effectiveness of available services.

USAID/India – The mission achieved planned targets for its grants, cooperative
agreements, and contracts for fiscal year 2005. Most notable, the mission achieved 132
percent of its target for the number of people living with HIV/AIDS accessing services
provided (achieved 4,605, exceeding its target of 3,482).

USAID/Zimbabwe – Despite problems with hyperinflation as discussed earlier, the
mission managed to achieve some impressive results, including the following:




In conjunction with widely distributing condoms to the highest-risk areas, USAID/Zimbabwe’s road
shows have proven to be an effective way to convey important prevention information by engaging
the community interactively to dispel misinformation about HIV/AIDS. In this photo, the facilitator is
demonstrating the strength and capacity of a condom to counter the misconception that condoms
break too easily and therefore are not worth using. Photo taken by a RIG/Dakar auditor in
Chendambuya, Zimbabwe, in May 2007.

As a key condom distributor in Zimbabwe, the mission’s condom out-of-stock rate in
public facilities was less than 5 percent for fiscal year 2006. In addition, the mission’s


                                                                                                7
social marketing program was successful, with high condom sales per capita. The
mission’s outreach activities, estimated to have reached more than 93,000 individuals
(mission’s expectations were to reach 10,000 individuals), included road shows that
promoted HIV prevention and other behavior changes beyond abstinence or being
faithful.

USAID/Malawi – The mission significantly exceeded its targets for (1) the number of
pregnant women who received HIV counseling and testing for prevention of mother-to-
child transmission and received their test results, (2) the number of individuals trained to
promote HIV/AIDS prevention through abstinence and/or being faithful, and (3) the
number of individuals who received counseling and testing for HIV and received their
test results.

USAID Should Strengthen
Performance Management

According to Automated Directives System 203.3.3, operating units are responsible for
establishing performance management systems to measure progress toward intended
objectives. However, at three missions audited, performance monitoring needed
improvement. According to the missions, this was primarily due to a shortage of staff
and other competing priorities at the missions. Consequently, the ability to monitor and
track PEPFAR’s achievement of intended results was limited.

According to Automated Directives System (ADS) 203.3.3, operating units are
responsible for establishing performance management systems to measure progress
toward intended objectives. The ADS defines performance management as “the
systematic process of monitoring the results of activities; collecting and analyzing
performance information to track progress toward planned results; and using
performance information to influence program decisions.” This systematic analysis of
the progress of a strategic objective determines whether USAID-supported activities are
leading to the results outlined in the approved results framework. The ADS suggests
that during the portfolio review, the mission review outputs—defined as “a tangible,
immediate, and intended product for consequence of an activity within USAID’s
control”—to specifically address two questions: (1) Are the planned outputs being
completed on schedule? (2) Are the planned results leading to the achievement of the
desired results as anticipated?

We encountered different situations in which performance management at the missions
should be strengthened. For example,

   •   In Zimbabwe, the mission did not review its activities at the output level, which
       resulted in erroneous or inconsistent reporting. Some indicator results had not
       been monitored, the percentage of planned output achieved was not calculated
       correctly, and some planned targets were not documented. For example, the
       mission was responsible for monitoring 48 outputs identified in its cooperative
       agreements with four implementing partners. However, for three of the four
       partners, the audit team was unable to compare the planned outputs with the
       yearend results reported by the partners, as follows: (1) one partner listed 15
       planned outputs, but reported on only 1 output; (2) a second partner received



                                                                                      8
       funding from two donors but did not use a consistent attribution methodology for
       calculating results achieved for each donor; and (3) a third partner’s work plan
       did not include any planned outputs.

   •   The Malawi mission’s performance management plan did not fully reflect all of
       the relevant activities. For example, although some of the indicators listed were
       similar to those in PEPFAR, some indicator definitions in the performance
       management plan differed from those of PEPFAR. Furthermore, even though
       targets were set for PEPFAR indicators—including targets reported in USAID’s
       Performance and Accountability Report—starting in fiscal year 2006 and beyond,
       the available baselines in the performance management plan for setting targets
       were at least 2 years old. As a result, the performance management plan lacked
       a complete set of relevant indicators that reflect PEPFAR activities and serve as
       useful baselines for setting targets.

   •   In Cambodia, mission staff did not conduct regular contact and site visits for one
       partner.    Site visits that were conducted on another partner were not
       documented. In addition, the targets were set too low for the indicators. All of
       the indicators exceeded their targets by at least 30 percent, including two that
       exceeded the target by more than 60 percent.

According to mission management at the three missions, these issues occurred primarily
because of a shortage of staff, especially in Zimbabwe, where political and economic
conditions were challenging.

In Cambodia, other competing work requirements also contributed to the problem.
Concerning the problem of setting targets too low in Cambodia, the mission did not
factor in the Government of Cambodia’s expanded voluntary counseling and testing sites
for HIV, which contributed to more results reported than planned. Also, the mission was
unfamiliar with PEPFAR’s new target-setting process and was unaware that the
PEPFAR targets could be adjusted.

Consequently, USAID was limited in its ability to monitor and track PEPFAR’s
achievement of intended results. A more thorough review of the activities would allow
the missions to ensure that outputs identified in its agreements are effectively monitored,
which would provide the basis for sound performance management.

Given that the ADS already specifies the importance of monitoring and measuring
progress and achieving outputs, and the three mission-level audit reports have already
made specific recommendations to correct the problems identified, we are not making a
recommendation related to this issue.




                                                                                     9
USAID Should Improve
Data Quality

According to Agency guidance, measuring performance effectively means that missions
must ensure that quality data are collected and available to make management
decisions. However, four of the five mission audit reports showed that reported results
were not verified. Also, a data quality assessment was not properly conducted at one
mission. According to the missions, the causes for these data quality weaknesses
included (1) other competing priorities for the mission, (2) lack of staff, (3)
misinterpretation of USAID guidance, and (4) lack of detailed guidance at one mission.
Relying on inaccurate data could result in inappropriate management decisions or in
understated or overstated reporting results.

According to Agency guidance, measuring performance effectively means that missions
should ensure that quality data are collected and available to make management
decisions. ADS 203.3.5.1 states that data reliability is a key dimension of data quality.
Only by using reliable data collected over time can program managers evaluate the
effectiveness of their program and determine its direction and relative efficiency. Also,
according to ADS 203.3.5.2, a data quality assessment is used to ensure that the
operating unit is aware of the strengths and weaknesses of the data and of the extent to
which the data integrity can be trusted to influence management decisions.

As discussed in more detail below, four of the five mission audit reports identified issues
related to data quality of outputs.

   •   In India, the cognizant technical officers’ site visits were not designed to
       determine if partners were properly monitoring the data quality of results reported
       by the partners or by their subrecipients. In addition, USAID/India did not
       conduct a data quality assessment for one of its largest implementing partners
       and performed a data quality assessment only by phone with another of its
       largest implementing partners. Mission staff misinterpreted USAID guidance, and
       the cognizant technical officers did not know that it was their responsibility to
       monitor data quality results during site visits.

   •   In Zimbabwe, for three of the four partners reviewed, problems were found with
       the data collection system and the accuracy of data reported to USAID, affecting
       6 of the 12 outputs tested. According to the mission, other competing priorities
       and a lack of staff at the mission contributed to these problems.

   •   In Malawi, the mission’s reported data contained numerous errors. For example,
       the mission reported that targets were reached for all seven results indicators in
       PEPFAR. However, the data for two of the results included information that
       predated fiscal year 2006. In addition, the data supporting these two results
       included data collected from both PEPFAR and non–PEPFAR activities.
       Furthermore, one subrecipient used two sets of data to report on palliative care
       because it assumed that the same data definition applied to both. In summary,
       the mission did not verify the reported data to ensure their reliability and
       accuracy. The mission was not aware of the additional requirements for




                                                                                    10
       assessments of data provided by the implementing partner. Also, mission staff
       did not conduct site visits, which could have included data verification.

   •   In Russia, the mission was not performing the level of review necessary for data
       quality purposes. Testing of the reported results revealed that some information
       reported by a subrecipient could not be supported. In addition, in several
       instances the mission-aggregated results data differed significantly from the
       supporting monthly reports submitted by the partner. Also, the audit revealed at
       least in one case in which data reported may not have been appropriate and
       consistent with what the indicator was intended to measure. Although existing
       policies and program guidance indicate that U.S. Government country teams are
       responsible for ensuring that reported data are of good quality assurance, the
       policy guidance does not outline specific procedures for achieving data quality
       assurance.

Relying on inaccurate data could result in inappropriate management decisions or in
results being understated or overstated. Therefore, a mission cannot reliably determine
if its program is achieving planned results, and the mission may report inaccurate
information to the AIDS Coordinator and other decision makers.

Since PEPFAR activities in four of the five missions audited had data quality issues, we
are concerned about the risk that PEPFAR activities in other missions might also have
data quality issues. Given the importance of data quality assurance, we believe that all
missions with PEPFAR activities should be provided with clear and explicit guidance.
Therefore, we are making the following recommendation.

       Recommendation No. 1: We recommend that the USAID Director for the
       Office of HIV/AIDS request that the Department of State’s Office of the
       U.S. Global AIDS Coordinator issue clear and explicit guidance to all
       missions with the President’s Emergency Plan for AIDS Relief activities to
       ensure that (a) data quality assessments are conducted properly and (b)
       reported results are properly verified.




                                                                                    11
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Office of HIV/AIDS comments to the draft report are included in their entirety in
appendix II.

In its comments to the draft report, USAID’s Office of HIV/AIDS agreed with the
recommendation in the report. USAID noted that the Department of State’s Office of the
Global AIDS Coordinator also agreed with the recommendation. A data quality assurance
tool has been developed and will be included within the fiscal year 2009 country operational
plan guidance to be sent out to PEPFAR countries in early June 2008. This tool will assist
country programs in assessing and improving data quality. In addition, the Department of
State’s Office of Global AIDS Coordinator and its implementing partners (USAID and the
Centers for Disease Control and Prevention) will hold a series of regional training in
calendar year 2008. USAID’s Office of HIV/AIDS will continue to provide technical
assistance on data quality at the request of our missions. Therefore, we consider that final
action has been taken on the recommendation.




                                                                                     12
                                                                                      APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted audits at five missions in accordance with
generally accepted Government auditing standards. These audits were designed to
answer the following question: Did USAID's prevention, care, and treatment activities in
its President’s Emergency Plan for AIDS Relief (PEPFAR) achieve planned results in its
grants, cooperative agreements, and contracts? This report summarizes the results of
audit work conducted both at USAID offices in Washington, DC, and at selected
overseas missions. 4 The audit fieldwork was conducted from December 13, 2006,
through March 4, 2007, as follows:

      •    Washington, DC—December 13, 2006 through March 4, 2007.

      •    India—at the mission and various sites from January 29 through February 17, 2007.

      •    Zimbabwe—at the mission and various sites from May 7 through May 24, 2007.

      •    Malawi—at the mission and various sites from May 8 through June 18, 2007.

      •    Russia—at the mission and various sites from May 29 through June 21, 2007.

      •    Cambodia—at the mission and various sites from June 5 to June 29, 2007 and in
           Thailand on July 2, 2007.

In conducting these audits, we assessed the effectiveness of USAID’s internal controls
related to PEPFAR. The management controls identified included the missions’ annual
reports, data quality assessments, and annual self-assessments of management
controls as required by the Federal Managers’ Financial Integrity Act; trip reports to
document field visits by cognizant technical officers; program progress reports; and day-
to-day interaction between mission staff and implementers.

The cutoff date for measuring achievement of selected outputs was September 30, 2006.

Methodology
We reviewed relevant documentation related to PEPFAR, including but not limited to
missions’ performance management plans, annual reports, cooperative agreements and
contracts, implementing partners’ quarterly and annual progress reports, and field trip
reports to determine progress toward outputs. We interviewed officials, including mission
staff working under PEPFAR, implementing partners, and subpartners, and conducted
visits to various sites. We judgmentally selected key outputs for each selected partner
and compared those output percentages against the audit threshold criteria to determine
if planned outputs were achieved.

4
    See appendix IV for a list of audit reports issued during this worldwide audit.



                                                                                           13
                                                                                 APPENDIX I


The audit threshold criteria were as follows for the audits conducted of USAID/India,
USAID/Zimbabwe, USAID/Malawi, and USAID/Cambodia:

      1) If at least 90 percent of the selected key outputs have been achieved, 5 the
         answer to the audit objective would be positive.

      2) If at least 80 percent but less than 90 percent of the selected key outputs have
         been achieved, the answer to the audit objective would be qualified.

      3) If less than 80 percent of the selected key outputs have been achieved, the
         answer to the audit objective would be negative.

The audit threshold criteria for the audit conducted of USAID/Russia was set at 75
percent. 6 That is, if the activities contained in the project work plans were consistent with
the project’s overall goals and the implementing partners had achieved at least 75
percent of planned outputs for the fiscal year, the program was judged either to have
achieved or to be making acceptable progress toward achieving its planned results.

For purposes of this summary audit report, we did not establish a materiality threshold to
answer the audit objective, but instead report on the actual results of the five missions.




5
 The audit team considered an output to be achieved if the partner completed at least 90 percent
of the expected (planned) output.
6
  Each Regional Inspector General office was able to establish its own materiality threshold for
this audit.


                                                                                         14
                                                                 APPENDIX II




MANAGEMENT COMMENTS



MEMORANDUM

TO:                IG/A/PA, Steven H. Bernstein, Director

FROM:              GH/OHA, Denny Robertson, Acting Director /s/

SUBJECT:           Audit of USAID’s Implementation of the President’s
                   Emergency Plan for AIDS Relief (Report No. 9-000-08-
                   00X-P)

This memorandum transmits the Office of HIV/AIDS’ response to the draft
audit report titled “Audit of USAID’s Implementation of the President’s
Emergency Plan for AIDS Relief (Report No. 9-000-08-00X-P).

This report recommends the Office of HIV/AIDS Director request that the
Department of State’s Office of the U.S. Global AIDS Coordinator issue
clear and explicit guidance to all missions with Emergency Plan activities to
ensure that data quality assessments are conducted properly and reported
results are properly verified.

Both USAID/OHA and the Department of State/Office of the Global AIDS
Coordinator fully agree with your recommendation. A Data Quality
Assurance Tool has been developed and will be included within the FY 2009
Country Operational Plan (COP) guidance that will be sent out to all
PEPFAR countries in early June 2008. This tool will assist country programs
in assessing and improving data quality.

The Data Quality Assurance Tool ensures:

   • The completeness, accuracy and consistency of the data;

                                                                        15
                                                                APPENDIX II


   • The upstream (indirect) and downstream (direct) framework for target
     setting and results reporting; and,
   • The identification and resolution of double-counting.

This tool consists of diagnostics, guidance, worksheets, and text boxes that
emphasize preventing and managing data quality challenges and
documenting process so that reporting systems are auditable. Its overall goal
is to provide clear and practical guidance so that each PEPFAR country
program understands the constraints to good results reporting and addresses
them in the same way.

USAID/OHA continues to provide technical assistance on data quality at the
request of our missions. In addition, OGAC and its implementing partners
(USAID and CDC) will hold a series of regional trainings in calendar year
2008 and 2009.

In closing, the Office of HIV/AIDS would again like to express its
appreciation for the manner in which these audits were conducted and the
usefulness of the findings contained therein.




                                                                        16
                                                                              APPENDIX III


        Audit Recommendations by Mission Audited                                        7



    Mission               Audit Recommendations                          Recommendation
                                                                               Status
India           1. Conduct data quality assessments on data              Final Action
                   reported by AIDS Prevention and Control and
                   Avert Society.

                2. Develop mission-specific procedures to ensure         Final Action
                   that future data quality assessments are
                   conducted on a timely basis, in accordance
                   with USAID policy, and include recipients with
                   significant PEPFAR funding.

                3. Develop mission-specific procedures and               Final Action
                   include, in the trip reporting format, a
                   requirement that cognizant technical officers
                   review documentation during their site visits to
                   prime recipients to determine if the prime
                   recipient is properly monitoring data quality.

                4. Require Family Health International to develop        Final Action
                   procedures that provide consistent data
                   accumulation and reporting for all its
                   subrecipients, and require testing of output
                   source documents to reported data during site
                   visits to its subrecipients.

                5. Require Avert Society and AIDS Prevention             Final Action
                   and Control to document their testing of output
                   source documents to reported data during site
                   visits to subrecipients.

Zimbabwe        1. Revise its Mission Order on semiannual portfolio      Management
                   reviews to include reviewing output level data to     Decision
                   ensure that outputs in grants, cooperative
                   agreements and contracts continue to be
                   monitored in addition to higher-level results.



7
  The audit recommendation status was obtained from the Consolidated Audit Tracking System, a
database managed by USAID’s Audit, Performance and Compliance Division, on April 8, 2008. A
management decision is made when the Office of the Inspector General (OIG) agrees with the
USAID audit action officer on the appropriateness of corrective action, or when the OIG
acknowledges that a contract, grant, or agreement officer has made a management decision. For
performance audits such as the above mentioned mission-level audits, the OIG must agree that
the proposed action will correct the adverse situation that necessitated the recommendation.
Final action occurs when action has been taken to correct or improve the problem, or when
management has demonstrated that action is not necessary.




                                                                                        17
                                                                      APPENDIX III


Mission              Audit Recommendations                         Recommendation
                                                                         Status
          2. Develop procedures that define the roles and          Management
             responsibilities of mission and partner staff in      Decision
             assuring the quality of PEPFAR activity data.
             At a minimum, this would include procedures
             related to verifying reported data with source
             documentation,       12    documenting      key
             assumptions and calculations, and maintaining
             documentation to support reported results.

Malawi    1. Update its performance management plan to             Management
             fully reflect the relevant activities being carried   Decision
             out under PEPFAR and establish new
             baselines for its indicators.

          2. Develop formal procedures for (a) reviewing           Management
             and providing prompt feedback concerning              Decision
             quarterly reports and (b) following up with
             partners to ensure that corrective actions are
             taken related to data quality.

          3. Establish a plan to conduct regular site visits of    Management
             partners’ activities and validate PEPFAR              Decision
             partners’ data during those site visits.

          4. Conduct data quality assessments for its              Management
             PEPFAR indicators, including verification of          Decision
             partners’ field data.

           5. Review the data-collecting methodology of its        Management
               PEPFAR partners, recalculate the actual data        Decision
               for fiscal year 2006, as necessary, and restate
               these amounts in its fiscal year 2007 PEPFAR
               Annual Report.
          6. Request a decision from USAID’s Office of
              Acquisition and Assistance Policy Division as        Management
              to whether agreements predating the June             Decision
              2006 change to ADS should be amended to
              include the mandatory standard provision
              addressing equal protection of law for faith-
              based and community organizations and, as
              necessary, amend all agreements to include
              this mandatory standard provision.




                                                                            18
                                                                        APPENDIX III


Mission               Audit Recommendations                      Recommendation
                                                                     Status
Russia     1. Develop specific procedures for its PEPFAR            Management
              program activities that clearly define the roles      Decision
              and responsibilities of activity managers and
              partners for data quality assurance of the
              reported program results. At a minimum, these
              procedures should include the following: (a)
              spot checks of reported data to supporting
              records to verify accuracy and (b) a review of
              data and data sources to ensure that results
              reported to the mission are appropriate and
              consistent with the prescribed indicator
              definitions.

Cambodia    1. Establish mission-specific procedures to revise     Management
               its performance targets for PEPFAR activities       Decision
               when there are significant program changes.

            2. Develop mission-specific procedures requiring       Final Action
               that site visits of PEPFAR activities be
               documented and maintained in the official
               award file.

            3. Coordinate with the Regional Development            Management
               Mission/Asia to formally redelegate cognizant       Decision
               technical officer duties to in-country activity
               managers by using a designation letter from
               the agreement officer that authorizes and
               clearly outlines such redelegated duties.




                                                                                  19
                                                                      APPENDIX IV


                        Audit Reports Issued
The following reports were issued as part of this PEPFAR (nonfocus countries)
audit.   The   reports    are   available   on    USAID/OIG’s Web   site   at
http://www.usaid.gov/oig/public/fy07rpts/fy07rpts1.html

Report No. 9-910-07-006-P, Audit of USAID/India’s Implementation of the President’s
Emergency Plan for AIDS Relief, May 30, 2007

Report No. 7-613-08-001-P, Audit of USAID/Zimbabwe’s Implementation of the
President’s Emergency Plan for AIDS Relief, October 24, 2007

Report No. 4-612-07-011-P, Audit of USAID/Malawi’s Implementation of the President’s
Emergency Plan for AIDS Relief, September 21, 2007

Report No. 8-118-07-004-P, Audit of USAID/Russia’s Implementation of the President’s
Emergency Plan for AIDS Relief, August 10, 2007

Report No. 5-442-07-010-P, Audit of USAID/Cambodia’s Implementation of the
President’s Emergency Plan for AIDS Relief, September 18, 2007




                                                                              20
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig



                                            21
